Audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants
 to the New Albany, Indiana Police Department
GR-50-01-002
November 30, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the New Albany, Indiana Police Department (New Albany PD).  The purpose of the grants is to enhance community policing.  The New Albany PD was awarded a total of $450,000 to hire six officers.

We reviewed the New Albany PD's compliance with seven essential grant conditions.  We found the grantee was generally in compliance with budgeting and hiring of officers, retention of officers, and community policing.  However, we identified the following deficiencies: 

The New Albany PD charged unallowable costs to its grants.  However, we are not questioning costs because the grantee had incurred sufficient allowable costs to account for all reimbursements.

	A significant portion of the required local matching funds remains to be provided.

	Monitoring and Financial Status Reports were not accurate, not timely filed, or not filed.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.